P^tDAA.(khc-/\~

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 11 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

NIKOLAY VLADIMIROV SLOBODA,
Plaintiff-Appellant,
v.
MICHAEL OBENLAND, Superintendent,
Monroe Correctional Complex,

No.

21-35097

D.C. No. 2:20-cv-01329-RJB
Western District of Washington,
Seattle
ORDER

Defendant-Appellee.
Before: M. SMITH, BADE, andBUMATAY, Circuit Judges.
A review of the record and appellant’s response to this court’s February 8,
2021 order to show cause demonstrates that this court lacks jurisdiction over this
appeal because the notice of appeal, dated January 21, 2021 and filed on February
1, 2021, was not filed or delivered to prison officials within 30 days after the
district court’s judgment entered on December 14, 2020. See 28 U.S.C. § 2107(a);
United States v. Sadler, 480 F.3d 932, 937 (9th Cir. 2007) (requirement of timely
notice of appeal is jurisdictional); see also Bowles v. Russell, 551 U.S. 205 (2007)
(court lacks authority to create equitable exceptions to jurisdictional requirement of
timely notice of appeal). Consequently, this appeal is dismissed for lack of
jurisdiction.
DISMISSED.

DA/Pro Se

Case 2:20-cv-01329-RJB Document 8 Filed 12/14/20 Page 1 of 1

1
2
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

3
4
5

NIKOLAY SLOBODA,
Plaintiff,

6
7

Case No. C20-1329-RJB

v.
ORDER DISMISSING ACTION

8

MICHAEL OBENLAND,
Defendant.

9
10
11

The Court, having reviewed plaintiffs complaint, the Report and Recommendation of the

12

Honorable Mary Alice Theiler, United States Magistrate Judge, any objections thereto, and the

13

remaining record, hereby finds and ORDERS as follows:

14

(1)

The Report and Recommendation is approved and adopted (Dkt. 7);

15

(2)

Plaintiff s complaint (Dkt. 5) and this action are DISMISSED without prejudice,

16

under 28 U.S.C. § 1915(e)(2)(B)(ii), for failure to state any claim upon which relief may be

17

granted. The Clerk shall count this dismissal as a strike under 28 U.S.C. § 1915(g); and

18
19
20

(3)

The Clerk is directed to send copies of this Order to plaintiff and to the Honorable

Mary Alice Theiler.
DATED this 14th day of December, 2020.

21
22
ROBERT J. BRYAN
United States District Judge

23
ORDER DISMISSING ACTION - 1

Case 2;20-cv-01329-RJB Document 7 Filed 11/16/20 Page 1 of 5

1
2
3
4
5
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8

NIKOLAY SLOBODA.
Plaintiff,

9
10

Case No. C20-1329-RJB-MAT

v.
REPORT AND RECOMMENDATION

11

MICHAEL OBENLAND,
Defendant.

12
13

INTRODUCTION AND SUMMARY CONCLUSION

14
15

This is a pro se civil rights action proceeding under 42 U.S.C. § 1983. Plaintiff Nikolay

16

Sloboda has been granted leave to proceed with this action in forma pauperis. Service has not

17

been ordered. This Court, having reviewed plaintiffs complaint, and the balance of the record,

18

concludes that plaintiff has failed to adequately state a claim upon which relief may be granted in

19

this action.

20

dismissed, without prejudice, pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii).

21

This Court therefore recommends that plaintiffs complaint and this action be

DISCUSSION

22

Plaintiff is currently confined at the Monroe Correctional Complex (“MCC”) - Special

23

Offenders Unit (“SOU”). On September 1, 2020, plaintiff presented to this Court for filing a
REPORT AND RECOMMENDATION - 1

Case 2:20-cv-01329-RJB Document 7 Filed 11/16/20 Page 2 of 5

1

prisoner civil rights complaint in which he alleged that god and Michael Obenland, the MCC

2

Superintendent, had violated his Eighth Amendment right to be free from cruel and unusual

3

punishment. (Dkt. 5 at 4.) Plaintiff asserted that he had “been going through sexuall [sic] torture

4

and other pains for around 7 years now,” and that this was a recurrence of pain he experienced

5

when he first came to prison in 2007. (Id.) Plaintiff stated that he was “getting tired of going

6

through torture by god,” and that he wanted the pain he experiences every day “to go away and

7

stay away.” (Id. at 4-5.)

8

Plaintiff made reference in his complaint to killing someone and to assaulting “evil dings

9

and weirdos,” and he suggested this was an attempt to make his pain go away, but apparently it

10

didn’t work.

(Id. at 5.) Plaintiff asserted that he did not deserve the pain and should be

11

immediately released from custody. (Id.) He claimed that the Department of Corrections (“DOC”)

12

might be able to help him but had chosen not to. (Id.) Plaintiff requested damages and indicated

13

a desire for those who have caused him pain to go to prison and suffer as he has. (Id. at 9.)

14

Plaintiff submitted in conjunction with his civil rights complaint a series of complaints and

15

grievances he presented to MCC staff raising essentially the same issues as are raised in this action.

16

(Dkt. 5-1.) Those documents reveal that while interviewing plaintiff in relation to his institutional

17

complaints, the mental health counselor assigned to investigate plaintiffs claims reminded him

18

that his concerns were based on active mental health hallucinations and advised him that there was

19

little the DOC could do to prevent this from happening other than follow plaintiffs treatment plan

20

and meet with him regularly. (See id. at 7.) The grievance response advised plaintiff that though

21

his claims could not be substantiated, his mental health team was aware of his concerns and was

22

actively working to help him address them. (Id.) Plaintiff was encouraged to continue making use

23

of his coping strategies, taking his medication, and meeting with his primary therapist and the
REPORT AND RECOMMENDATION - 2

Case 2:20-cv-01329-RJB Document 7 Filed 11/16/20 Page 3 of 5

1

psychiatric provider so that his mental health needs could be met. (Id.)

2

After reviewing plaintiffs complaint, this Court concluded that plaintiff had not adequately

3

alleged a cause of action against Mr Obenland, the only defendant identified in plaintiffs

4

pleading. Thus, on September 14, 2020, the Court issued an Order declining to serve plaintiffs

5

complaint and granting him leave to file an amended complaint correcting specified deficiencies.

6

(Dkt. 6.) Among the deficiencies noted by the Court was that plaintiff failed to allege any facts

7

demonstrating that Mr. Obenland personally participated in any violation of his federal

8

constitutional rights as is required to state a claim for relief under § 1983. (Id. at 3-4.)

9

The Court went on to explain that it had construed plaintiffs Eighth Amendment claim as

10

one alleging that the DOC had provided him inadequate care for his mental health needs. (Id. at

11

4.) The Court then set forth the standard applicable to such claims, including the requirement that

12

plaintiff demonstrate defendant was deliberately indifferent to his health or safety. (Id.) The Court

13

observed that the materials submitted by plaintiff in conjunction with his complaint appeared to

14

undermine any claim that the DOC had been deliberately indifferent to his mental health needs as

15

his materials suggested that the MCC-SOU mental health staff was, in fact, actively working with

16

him to address his concerns. (Id. at 5.)

17

Plaintiff was advised that if he wished to proceed with his Eighth Amendment claim he

18

would need to specifically identify the individuals whom he believed had deprived him of adequate

19

care, and he would need to allege clear and specific facts demonstrating that each such individual

20

had been deliberately indifferent to his mental health needs. (Id.) Plaintiff was also advised, with

21

respect to his assertion that he believed he should be immediately released from confinement, that

22

release from confinement was not a viable form of relief in an action brought under § 1983.

23

Plaintiff was given thirty days to file an amended complaint correcting the noted
REPORT AND RECOMMENDATION - 3

Case 2:20-cv-01329-RJB Document 7 Filed 11/16/20 Page 4 of 5

1

deficiencies and was advised that if he failed to timely file an amended complaint, or to correct the

2

deficiencies identified by the Court, the Court would recommend that this action be dismissed

3

under 28 U.S.C. § 1915(e)(2)(B) for failure to state a claim upon which relief may be granted. To

4

date, plaintiff has filed no amended complaint.

5

When a complaint is frivolous, malicious, fails to state a claim on which relief may be

6

granted, or seeks monetary relief against a defendant who is immune from such relief, the Court

7

may dismiss an in forma pauperis complaint before service of process under 28 U.S.C. §

8

1915(e)(2)(B). Because plaintiff failed to state any viable claim for relief in his original complaint,

9

and because he has not filed an amended complaint correcting the deficiencies identified by the

10

Court, this action must be dismissed.
CONCLUSION

11
12

Based on the foregoing, this Court recommends that plaintiffs complaint and this action

13

be dismissed without prejudice, under 28 U.S.C. § 1915(e)(2)(B)(ii), for failure to state a viable

14

claim for relief under § 1983. This Court further recommends that this dismissal be counted as a

15

strike under 28 U.S.C. § 1915(g).

16

Recommendation.

17

A proposed order accompanies this Report and

OBJECTIONS

18

Objections to this Report and Recommendation, if any, should be filed with the Clerk and

19

served upon all parties to this suit within twenty-one (21) days of the date on which this Report

20

and Recommendation is signed. Failure to file objections within the specified time may affect the

21

right to appeal. Objections should be noted for consideration on the District Judge’s motions

22

calendar for the third Friday after they are filed. Responses to objections may be filed within

23

fourteen (14) days after service of objections. If no timely objections are filed, the matter will be
REPORT AND RECOMMENDATION - 4

Case 2:20-cv-01329-RJB Document 7 Filed 11/16/20 Page 5 of 5

1
2

ready for consideration by the District Judge on December 11. 2020.
DATED this 16th day of November, 2020.

3
4

Mary Alice Theiler
United States Magistrate Judge

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
REPORT AND RECOMMENDATION - 5

